COCKLE

2311 Douglas Street s
Omaha, Nebraska 68102-1214 Legal B risks
1:800-225-6964
(402) 342-2831

Fax: (402) 342-4850
No.

JOHN PINDER,
Petitioner,
vs.
SCOTT CROWTHER,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 3215 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of September, 2020.

1am duly authorized under the laws of the State of Nebraska to administer oaths.

thos Oudiaw-h. Chile

    

f GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023,

Notary Public

Affiant

40086
